                               MEMORANDUM REPORT 

                   SURVEY OF RISK MANAGEMENT BY INDUSTRY CODE 


                                       Audit Report Number 4-37 


                                              August 11, 2004 





The finding in this report is the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                                Washington, DC 20416 




                                                                       AUDIT REPORT
                                                                 Issue Date: August 11, 2004
                                                                 Number: 4-37


To:            Janet Tasker
                Associate Administrator, Office of Lender Oversight


From:          Robert G. Seabrooks [FOIA Ex. 6]
               Assistant Inspector General for Auditing

Subject:       Memorandum Report - Survey of Risk Management by
                Industry Code

       Attached is a copy of the subject report. The report contains one finding and one
recommendation. You agreed with the recommendation and provided comments concerning
portions of the report. As a result of your comments, we modified certain passages in the report.
A written evaluation of your comments is included as part of the report and your comments have
been included as an attachment.

       The finding in the report is the conclusion of the Office of Inspector General’s Auditing
Division. The finding and recommendation are subject to your review and corrective action in
accordance with existing Agency procedures for audit follow-up and resolution.

       Please provide your management response and actions to address the recommendation
within 30 days from the date of this report on the attached SBA Form 1824, Recommendation
Action Sheet. The SBA Form should be sent to:
        Audit Manager
        SBA OIG/Auditing Field Office, Suite 1803
        233 Peachtree Street, NE
        Atlanta, Georgia 30303
       Any questions you may have regarding this report should be directed to Garry Duncan,
Director, Credit Programs Group, at (202) 205-[FOIA Ex. 2].

Attachments
                                     INTRODUCTION

       The purpose of this memorandum report is to provide you with the results of our survey
of SBA’s risk management efforts using industry codes. We initiated a survey to determine if
SBA’s procedures identify and control the level of financial risk posed by loans to various types
of businesses.

                                        BACKGROUND

       The Small Business Administration (SBA) is authorized under Section 7(a) of the Small
Business Act to provide financial assistance to small businesses in the form of Government-
guarantied loans. To be eligible for the Section 7(a) loan program, an applicant must be a small
business. Small businesses are entities that meet the size standards for their industries as
designated by the applicable industry codes contained in Title 13 of the Code of Federal
Regulations, Part 121.201.

        Prior to October 2000, SBA used the four-digit Standard Industry Classification (SIC)
codes to classify each loan. This coding system was developed to facilitate the collection,
tabulation, presentation, and analysis of data relating to establishments and to promote
uniformity and comparability in the presentation of statistical data. In October 2000, SBA
adopted the North American Industry Classification System (NAICS) codes into its table of
small business size standards. Both the SIC and the NAICS codes and other data are reported to
SBA by the lender for each loan and maintained in SBA’s loan accounting system database. The
database also contains information about each loan’s status, such as whether the loan is current,
paid-in-full, or charged off, the borrower’s gender and ethnicity, the lender, the use of proceeds,
and the responsible district office. The data can be sorted and analyzed to identify trends and
other details about the loan portfolio.

        The Office of Lender Oversight (OLO) has responsibility for monitoring Section 7(a)
business loans to identify and analyze risk. This is accomplished through lender reviews and
analysis of lender and loan data. The Office of Financial Assistance monitors lenders based on
field office input and reviews of requests for guaranty purchases of defaulted loans. The SBA
share of outstanding balances for 7(a) loans in the portfolio is $28.7 billion as of January 31,
2004.

                     OBJECTIVE, SCOPE, AND METHODOLOGY

        The objective of our survey was to determine if SBA’s procedures identify and control
the level of financial risk posed by loans made under each SIC/NAICS code. At our request,
SBA’s Office of the Chief Information Officer extracted from SBA’s loan accounting system a
special listing of 317,242 loans - all Section 7(a) loans approved October 1, 1996, through June
9, 2003. We eliminated those loans that were cancelled or committed, which resulted in an
analytical base of 257,354 loans or 81 percent of the loans originally provided to us with a gross
loan amount of $55,575,204,455. For analysis purposes, we segregated the analytical base into
three groups. The first group included 172,117 loans with valid SIC codes. The second group
included 84,936 loans with both SIC and NAICS codes. The SIC codes for these loans did not


                                                 1

appear to be valid (they were 9999 or 0), so we used the NAICS codes. The third group
consisted of 301 loans that had SIC codes that also appeared not to be valid (they were 9999 or
0) and did not have NAICS codes. The 301 loans were not used in our analyses.

        Interactive Data Extraction Analysis software was used to analyze the data for each group
of loans. Verification fieldwork was conducted in Atlanta, GA; Fresno, CA; and Little Rock,
AR during the period May 2003 through September 2003. The survey was performed in
accordance with generally accepted Government Auditing Standards.

        Government Auditing Standards require that the validity and reliability of computer-
processed data be tested when that data is significant to the audit results.1 Data are reliable when
they are complete, accurate, and the results meet intended purposes and are not subject to
inappropriate alteration. Reliability does not mean that computer-processed data are error-free.
We assessed the validity and reliability of selected data elements in the loan accounting system. 2

        Using a statistical sample of 233 loans from the universe, we traced the selected data
elements to source documents to determine data accuracy and completeness. We identified an
error rate of 5.46 percent and concluded that the data were sufficiently reliable for the purposes
of our survey work.




1
    U.S. General Accounting Office, Government Auditing Standards, GAO/OCG-94-4 (June 1994), paragraph 6.62.
2
    A data element is a unit of information with definable parameters (for example, a social security number) sometimes referred to
     as a data variable of a data field.


                                                                  2

                                               RESULTS OF SURVEY

        We concluded that, at the time of our review, SBA did not have procedures to routinely
identify and control the level of financial risk by industry code and that this type of analysis
would be beneficial. Subsequent to our review, OLO incorporated industry code analysis in its
oversight activities. Per OLO, a monthly portfolio analysis report is prepared with tables and
charts of data by industry groups and includes data on concentrations and performance metrics
by industry. Also, OLO stated that the redesigned risk based review process for on-site
examinations includes an analysis of industry concentrations in the lender’s portfolio. SBA
personnel could not provide evidence that they routinely identified and analyzed financial risk by
industry code. We believe that analyzing dollars at risk by industry codes is an appropriate tool
to identify trends and potential problem areas deserving management’s review.

Industry codes with the greatest concentration of risk

        Our analysis identified those industry codes with the largest number and dollar amount of
loans at risk3. For the 956 SIC codes in our analytical base, the highest level of risk was
concentrated in four codes which represented 18 percent of the loans and 24 percent of the
dollars. One SIC code, 5812 - eating places, accounted for 12 percent of the loans and 10
percent of the dollars. For the 1,126 NAICS codes, the highest level of risk was concentrated in
three codes which represented 12 percent of the loans and 20 percent of the dollars. The
following table shows the concentration of risk.
Table 1

                           Industry Codes with the largest Number of Loans and Dollar Amounts

         Industry             Industry         No. of Loans            % of        Guaranty Disbursed           % of Total Gross
        Description             Code            Approved             Population      Gross Amount               Disbursed Amount
                                SIC
         Population           CODES                   172,117           100             $ 38,351,948,813                 100
    Eating Places               5812                   19,822           12                 3,883,678,670                 10
    Grocery Stores              5411                    4,736            3                 1,237,298,136                  3
    Hotels and Motels           7011                    3,736            2                 2,775,355,421                  7
    Gas Service Stations        5541                    3,397             2                1,706,133,373                  4
           Totals                                      10,522            18               $9,602,465,600                  24

                               NAICS
    Population                 CODES                   84,936           100              $17,223,255,642                 100
                               722110
    Restaurants *              722211                    7706            9                  1,616,700,991                 9
    Gas Stations with
    Convenience Stores         447110                    1,521           2                    869,405,803                 5
    Hotels and Motels
    (except Casinos)           721110                   1,295            2                 1,037,618,966                  6
           Totals                                      13,459           12                $3,521,725,760                 20
  * For the purposes of this report, two NAICS codes, 722110 full service restaurants and 72221 limited service restaurants, were
combined due to their industry similarity.


3
    Risk as relates to this report is defined as SBA’s loan guarantied amount at the time the loan was disbursed..


                                                                 3
Liquidation and charge-off activity by industry code

        We analyzed the data to identify those industry codes with the largest dollar amount of
charge-off and liquidation activity. We identified the four SIC and the two NAICS codes with
the largest dollars in charged-off and liquidation status. These codes represented 27 percent of
the charged-off dollars and 31 percent of the liquidation dollars in our analytical base. With one
exception, each industry code’s percentage of the total dollars charged off or in liquidation
exceeded the code’s percentage of the total dollars disbursed in the analytical base. We noted
that each of the NAICS codes was related to one of the SIC codes, e.g., SIC code 5812 – eating
places and NAICS codes 722110 and 722211 – full and limited service restaurants.

Table 2
                                     SIC Codes with the Largest Amount of
                                      Charged-Off and Liquidation Dollars
                                                                   No. in                                     No. in
                                        Charged-off        %     Charged-         Amount to           %    Liquidation
   Industry Description       SIC        Amount                  off Status       Liquidation                Status
                              Code
 Eating Places                5812       $151,114,845       14     1,640         $277,139,732        13       1,335
 Gasoline Service Stations    5541          56,882,357       5       170           179,075,388        8         287
 Grocery Stores               5411          46,019,983       4       359            84,725,127        4         291
 Hotels and Motels            7011          29,130,167       3        79           146,608,963        7        178
                    Totals               $283,147,352      27     2,248          $687,549,210        31       2091
               Population               $1,047,025,219     100    10,496        $2,178,931,922       100      9,637

Table 3

                                 NAICS Codes with the Largest Amount of
                                  Charged-Off and Liquidation Dollars
Industry Description      NAICS    Charged-off      %     No. in      Amount to                 %      No. in
                           Code    Amount                 Charged- Liquidation                         Liquidation
                                                          off Status                                   Status
Full & limited service   7222110
restaurants              722211    $ 5,175,414       14           53 $ 55,945,096               13            252
Gas Stations with
Convenience Stores       447110        3,429,206           9           8         41,894,367      9            67
                Totals               $ 8,604,620          24          61      $ 97,839,463       22          319
           Population                $36,267,455         100         386      $ 444,736,587     100        2,104




                                                      4

Risk concentration by field office

         We further analyzed the data to determine whether those SIC and NAICS codes with the
largest amount of dollars in charge-off or liquidation status were concentrated in particular
district offices. We found that one district office, Dallas/Ft. Worth, had the largest percentage of
dollars in charged-off status for six industry codes and in liquidation status for five industry
codes. The percentage of the total dollars charged off or in liquidation status exceeded the
percentage of the total dollars disbursed for this office for each of the six industry codes. We
noted that the Houston District Office had the second largest charged-off percentages for three of
the six industry codes. As both the Dallas and Houston offices are in Texas, these results may be
indicative of a regional condition.
Charge offs

        For one SIC code, 5541, about 67 percent of the total dollars charged off were from loans
assigned to the Dallas/Ft. Worth District Office. This percentage was three times greater than
the percentage of dollars disbursed by this office for this SIC code. For the related NAICS code
(447110), 70 percent of the dollars were charged off which was more than six times greater than
the percentage of dollars disbursed by this office. The district offices with the next largest
amount of charged-off loans for these industry codes were Houston and Minnesota. The
percentages of total dollars charged off for these offices were only 3 and 11, respectively.

Table 4


                                 District Offices with the Highest Percentage of Charge-off Activity

                                 Percent of Dollars                      Percent of Dollars                  Percent of Dollars
 SIC                                       Charge-                                 Charge-                           Charge-Off
 CODE               District      Disb.      Off           District       Disb       Off         District    Disb        **
                     Office        *         **             Office         *         **           Office      *
 5812               DFW            4         10            Houston         3          5        Los Angeles    3           4
 eating places
 5541               DFW            20          67          Houston          8             3    Oklahoma       1          2
 gas stations
 5411               DFW            13          23          Houston          5             6    Los Angeles    8          6
 grocery stores
 7011               DFW             6          19         Richmond          3             8     Colorado      4          6
 Hotels and
 Motels
 NAICS
 CODE
 722110
 722211             DFW             5          15         Colorado          3             10    St. Louis     1          9
 restaurants
 447110             DFW            11          70         Minnesota         1             11    Houston       4          6
 gas stations
 w/ “C” stores
* See Table 1       – Guaranty disbursed gross amount for each industry code.
** See Tables 2 & 3 – Charged-off amount and liquidation amount for each industry code.




                                                                   5
Liquidations

        For five of the six industry codes, analyses showed a concentration for the percentage of
dollars in liquidation at the Dallas/Ft. Worth District Office. For three industry codes, this office
had a significantly greater percentage of dollars in liquidation status than the district office with
the next largest percentage of dollars in liquidation. Also, for one NAICS code (447110), the
percentage of dollars in liquidation for the Dallas/Ft. Worth District Office was almost three
times greater than the percentage of dollars disbursed.

Table 5


                                  District Offices with the Highest Percentage of Liquidation Activity

                                      Percent of Dollars                 Percent of Dollars                 Percent of Dollars

     SIC Code          District       Disb.      Liquid.     District    Disb.     Liquid.     District     Disb.     Liquid.
                       Office           *          **         Office      *          **         Office       *          **
     5541             DFW              20          30        Houston      8          10        Michigan      4           6
     gas stations
     5411            DFW             13         17         Georgia         7           8         Michigan    2           7
     grocery stores
     7011            DFW              6         10         Georgia         4           7         Arizona     3           6
     hotel / motels
     5812                                            No district office concentration for this code
     eating places
     NAICS
     CODE
     722110
     722211          DFW              5          7          Santa          4          6             San      1           6
     restaurants                                             Ana                                 Antonio
     447110
     gas stations    DFW             11         30         Houston         4          13         Michigan    8          11
     w/ “C” stores
     * See Table 1 – Guaranty Disbursed Gross Amount for each industry code. 

     ** See Tables 2 & 3 – Charged-off amount and liquidation amount for each industry code. 



Risk concentration by lender

        The analysis showed that there was a concentration of risk for one lender for loans
attributed to the Dallas/Ft. Worth District Office. For three of the four SIC codes, a significant
portion of the dollars charged off or in liquidation status were for loans processed by Bank
United (see exhibit A). These loans represented between 21 and 58 percent of the dollars
charged off for SIC codes 5411, 5541, and 5812. Also, for SIC codes 5411, 5541, Bank United
represented 18 and 72 percent, respectively, of the dollars in liquidation status (See Exhibit A).

Early Loan Defaults

        For each Industry code, a sizeable portion of the total dollars charged off or in liquidation
status were from loans that were considered early defaults. Per SBA, an early default is a loan
that defaults within 18 months of the date of final disbursement.4 As shown in Table 6, early
defaulted loans comprised more than 45 percent of the dollars charged off for each of the four
SIC codes and more than 80 percent for each of the NAICS codes.

4
    Per SBA Policy Notice 5000-831, dated October 2, 2002
                                                                6

   Table 6
                                 Early Default Percentages For Industry Codes

              SIC Code        5812         %        5541        %         5411         %          7011        %
                          eating places          gas stations         grocery stores          hotels/motels

Dollars Charged-off      $151,114,845     100   $ 56,882,357    100   $ 46,019,983     100   $ 29,130,167     100
Early Default* Dollars     76,279,543      53     32,801,470     58     21,301,543      46     14,356,953      49
Dollars to Liquidation    277,139,732     100    179,075,388    100     84,725,127     100     146,608,963    100
Early Default Dollars      57,560,285      21     38,855,354     22     14,705,368      17     22,356,992      15

          NAICS Code       722110 / 722211 full and limited                           447110
                                 service restaurants                   gas stations with convenience stores
Dollars charged-off                  $ 5,175,414                100                 $ 3,429,206               100
Early Default* Dollars                 4,621,121                 89                   3,149,233                92
Dollars to Liquidation                55,945,096                100                  41,894,367               100
Early Default Dollars                 42,289,653                 76                  31,246,532                75

   Loss Rates by District Office

           Our analysis showed that while the loss rate for each of the four SIC codes, as well as the
   average loss rate for our analytical base, was less than SBA’s benchmark of [FOIA Ex. 2], the
   loss rates applicable to the four SIC codes for some district offices were significantly above the
   benchmark. We did not compute loss rates for the NAICS codes as the loans were processed too
   recently to provide reasonable results.

   Table 7

                                    District Offices with Largest Loss Rates
                        Highest Rated Industries for Charge-off and Liquidation Activity
                      SIC Code         5812           %          5541         %          5411          %
      Dallas/Ft. Worth
      Gross Disbursed Amount     $ 165,163,766             $ 348,073,651           $ 163,737,067
      Charge-off Amount                14,388,604      9         38,302,489 11           10,708,997    7
      Houston
      Gross Disbursed Amount     $     98,652,202          $ 138,721,651           $     66,153,611
      Charge-off Amount                  8,050,501     8           1,726,261 12           2,915,113    4
      Los Angeles
      Gross Disbursed Amount     $ 135,578,718             $     53,482,986        $ 102,810,586
      Charge-off Amount                  6,571,687     5             800,505  2           2,861,395    3



   Management Discussion

           We discussed our survey results with personnel from the Office of Lender Oversight.
   They stated that industry codes are included in the current oversight process and are a risk factor
   in any given portfolio. They currently look at the top 25 industry groups in the 7(a) and 504 loan
   portfolios. Management also stated that it was in the process of implementing its Loan
   Monitoring System and will wait to see what that yields.


                                                       7

       Conclusion

        The periodic analysis of industry codes to monitor risk within the loan portfolio would be
a beneficial tool for identifying potential and actual risk. While SBA management has identified
risk by SIC code for both the Section 7(a) and Section 504 lending programs, they were not
doing this type of analysis on a routine basis at the initiation of our review. As demonstrated in
this report, analyses of this nature cannot only identify risk at the industry code level, but also at
the regional, district office, and lender levels. In addition, SBA could combine the industry code
analysis with other data elements to identify risk levels in specific types of loans or borrowers.
The transformation to NAICS codes from SIC codes will further enhance this type of analysis as
the NAICS codes better describe the type of businesses.

       [FOIA Ex. 5].

Recommendation

        We recommend that the Office of Lender Oversight include an analysis of industry codes
as a part of its loan and lender monitoring system to identify potential areas of financial risk and
to better focus its limited oversight resources.

Management Response

        The Associate Administrator for Lender Oversight stated that while her office agrees with
the recommendation and has already included such analysis in its oversight activities, she
disagreed with several conclusions and analyses presented in the report. She stated that OLO
identifies and analyzes risk, but does not manage it and does not make program management
determinations. She disagreed that OLO did not have procedures to routinely identify and
control the level of financial risk by industry code. She stated that OLO does have procedures in
place to routinely identify and analyze the level of financial risk by industry code and that an
analysis of the 7(a) portfolio by industry code is conducted monthly as part of the Monthly
Portfolio Analysis Report. She disagreed that combining the liquidation and charge-off activity
by SIC and NAICS codes would result in a greater concentration of risk. She believes the level
of concentration would remain the same. Lastly, she stated that the definition of risk, as defined
in the report, should be clarified.

Evaluation of management’s response

        The actions cited by the Associate Administrator concerning the recommendation are
acceptable. Based on her comments, we modified portions of the audit report. We changed the
report’s presentation of the scope of OLO’s responsibility, added statements about OLO’s
current procedures for industry code analyses, deleted our statement concerning the increased
concentration when combining SIC and NAICS codes, and expanded the definition of risk, as
used in the report. We do not agree that OLO was routinely identifying and analyzing the level
of financial risk by industry code when our survey started. At that time, LMS was in its initial
phase and had not been fully implemented. OLO and OFA personnel could not provide
evidence that they routinely identified and analyzed financial risk by industry code.




                                                  8

                                                                                                                                                       EXHIBIT A 



                                                          Lenders with the Largest Percentage of Charge-off Dollars
                                                      Per Selected Industry Codes for the Dallas/Ft. Worth District Office
                                  5812                   5541                      5411                   7011                    722110                447110
             Industry Code    Eating Places    %      Gas Stations     %        Grocery          %       Hotels          %        722211              Gas Stations      %
                                                                                                                                                %
                                                                                  Stores                                        Restaurants           w/C Stores

Charge-off Amount:              $14,388,604    100     $38,302,489     100         $10,708,997   100     $5,549,358    100           $782,267   100     $2,412,843      100
                                                                                                                      No Concentration

Bank United                       2,977,926    21       22,120,662     58            4,155,031   39
GE Capital Small
Business Finance                  1,364,241     9                                    2,664,918   25

Citizens National Bank                                   3,475,383      9
Amresco Independence
Funding                                                                                                                                                             *   65
                                                                                                                                                        1,567,951

                                                          Lenders with the Largest Percentage of Liquidation Dollars
                                                      Per Selected Industry Codes for the Dallas/Ft. Worth District Office

Liquidation Amount:            $ 11,958,358    100     $53,099,457     100     $    14,328,800   100   $15,276,099     100         $4,094,699 100     $12,354,668       100
                                                                                                                                 No Concentration

Bank United                                             38,129,993     72            2,546,112   18
Amresco Independence
Funding                                                  5,751,951     11                                 4,378,192     29                               3,180,254      26
Gateway National Bank          No Concentration                                      1,506,963   11
Transamerica Small
Business Capital
                                                                                                       3,274,462        21
CIT Small Bus. Lending
Corp.                                                                                                                                                    4,185,543      34

*
    Charge-off amount represented by 3 loans. Two loans charged-off for this lender.
                                                                                  Attachment 1




DATE: 	       July 7, 2004

TO:    	      Robert G. Seabrooks
              Assistant Inspector General for Auditing

FROM:         J	 anet A. Tasker
               Associate Administrator for Lender Oversight

SUBJ: 	       Management Response to OIG Draft Survey of Risk Management
              By Industry Code


         This memorandum provides management’s response to Office of Inspector General’s
(OIG) Draft Survey of Risk Management by Industry Code. While Lender Oversight agrees
with the recommendation in the survey and has already included such analysis in its oversight
activities, we disagree with several of the conclusions and analysis presented by OIG in the
survey.

      The following specific actions have been taken by the Office of Lender Oversight to
accomplish the recommendation:

   1.	 The Office of Lender Oversight produces a monthly portfolio analysis report for both the
       7(a) and 504 loan portfolios. The monthly portfolio reports include tables and charts with
       data and information on each portfolio by industry groups. Included in these
       presentations are data on concentrations as well as performance metrics by industry
       grouping.

   2.	 The redesigned risk based review process for on-site reviews includes a category for
       portfolio performance. One aspect analyzed in this category is industry concentrations.
       A lender’s SBA portfolio is sorted by industry concentration to assess whether any
       significant concentrations exist. If so, the lender’s expertise in and knowledge of the
       specific industries along with its ability to manage those concentrations is assessed as
       part of the review process.

      While Lender Oversight agrees with OIG’s recommendation, the survey contains a
number of factual errors and inaccuracies. These items are identified below:

   •	 Page 1, Background, Third Paragraph. The Office of Lender Oversight has responsibility
      for monitoring 7(a) business loans to identify and analyze risk. Lender Oversight does
      not manage risk. Lender Oversight provides input to but does not make program
        management determinations. Additionally, Lender Oversight plays no role in the review
        of requests for guaranty purchases of defaulted loans. Finally, the last sentence should
        be re-stated as follows to avoid confusion – “The SBA share of outstanding balances for
        7(a) loans in the portfolio is $28.7 billion as of January 31, 2004.”

    •	 Page 3, Results of Survey, First Paragraph. We disagree with OIG’s conclusion that SBA
       did not have procedures to routinely identify and control the level of financial risk by
       industry code and that this type of analysis would be beneficial. OLO does have
       procedures in place to routinely identify and analyze the level of financial risk by
       industry code. LMS provides accurate industry codes for most of the 7(a) loan portfolio
       via the Dun and Bradstreet data base. Analysis of the 7(a) portfolio by industry code is
       conducted monthly as part of the Monthly Portfolio Analysis Report. This paragraph also
       states that Lender Oversight ranks the portfolio for aggregated dollars at risk. Lender
       Oversight ranks SBA lenders based on the aggregated dollars at risk in their portfolio of
       SBA guaranteed loans, not the entire portfolio.

    •	 Page 3, Industry codes with the greatest concentration of risk, First Paragraph. The first
       sentence refers to the “dollar amount of loans at risk.” There is also a footnote defining
       “risk.” It is not clear what risk is referring to and the definition should be expanded to
       clarify the ambiguity, e.g., SBA’s loan guaranteed amount of outstanding balance, MIS
       status, purchases, and/or charge-offs, etc.

    •	 Page 4, Liquidation and charge-off activity by industry code, First Paragraph. The
       paragraph concludes that as the NAICS code analysis and the SIC code analysis resulted
       in the same percent of loans to eating places and restaurants being charged off and
       liquidated thus the concentration of risk would be greater if the codes were combined.
       Lender Oversight believes the concentration of risk would be the same if the two were
       combined. The two codes would still represent the same percentage of the new total.

       Please feel free to contact me at 202-205-[FOIA Ex. 2] should you need additional
information or have any questions regarding these comments.


cc: 	   Ronald Bew, ADA, Capital Access
        Calvin Jenkins, Deputy ADA, Capital Access
        James Rivera, AA, Financial Assistance
        Michael Pappas, AA, Field Operations
                                                                                                                   Attachment 2


                                      REPORT DISTRIBUTION 




Recipient                                                                                                         No. of Copies



Associate Deputy Administrator for Capital Access .......................................................1 



Associate Administrator for Field Operations .................................................................1 



Associate Administrator for Financial Assistance...........................................................1 



Financial Administrative Staff.........................................................................................1 

 Attention: Jeff Brown 



General Counsel...............................................................................................................3



General Accountability Office.........................................................................................1 

